<html>
<title> - RAISING THE BAR: PROGRESS AND FUTURE NEEDS IN FORENSIC SCIENCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  RAISING THE BAR: PROGRESS AND FUTURE
                       NEEDS IN FORENSIC SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2019

                               __________

                           Serial No. 116-43

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-583PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                           September 10, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................     9

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    11

                               Witnesses:

Ms. Susan Ballou, Program Manager, Office of Special Programs, 
  National Institute of Standards and Technology
    Oral Statement...............................................    13
    Written Statement............................................    15

Ms. Lynn Garcia, General Counsel, Texas Forensic Science 
  Commission
    Oral Statement...............................................    20
    Written Statement............................................    22

Ms. Vicki Zemp Behenna, Executive Director, Oklahoma Innocence 
  Project
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Karen Kafadar, Professor and Chair, Department of Statistics, 
  University of Virginia, and President, American Statistical 
  Association
    Oral Statement...............................................    43
    Written Statement............................................    45

Mr. Matthew Gamette, Crime Lab Director, Idaho State Police 
  Forensic Services
    Oral Statement...............................................    59
    Written Statement............................................    61

Discussion.......................................................    87

             Appendix I: Answers to Post-Hearing Questions

Ms. Susan Ballou, Program Manager, Office of Special Programs, 
  National Institute of Standards and Technology.................   110

Ms. Lynn Garcia, General Counsel, Texas Forensic Science 
  Commission.....................................................   116

Ms. Vicki Zemp Behenna, Executive Director, Oklahoma Innocence 
  Project........................................................   120

Dr. Karen Kafadar, Professor and Chair, Department of Statistics, 
  University of Virginia, and President, American Statistical 
  Association....................................................   123

Mr. Matthew Gamette, Crime Lab Director, Idaho State Police 
  Forensic Services..............................................   126

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   130

Statement submitted by Representative Bill Posey, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   132

Documents submitted by Mr. Matthew Gamette, Crime Lab Director, 
  Idaho State Police Forensic Services...........................   133

 
                  RAISING THE BAR: PROGRESS AND FUTURE
                       NEEDS IN FORENSIC SCIENCE

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:45 a.m., in 
room 2318, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. Good morning. This hearing will come to 
order.
    I have to apologize for being late. There was a significant 
program commemorating 400 years since the first slaves were 
brought to this country over in Emancipation Hall, and I tried 
to show my presence and was late getting over. So I apologize 
for that.
    But without objection, the Chair is authorized to declare 
recess at any time.
    I'd like to welcome everyone to the hearing.
    The criminal justice system relies on forensic science to 
identify and prosecute criminals and exonerate the falsely 
accused. Unfortunately, for too long, the science in forensic 
science was a misnomer. According to data from the Innocence 
Project, 367 individuals convicted of violent crimes across 37 
States have been exonerated as a result of DNA evidence. Nearly 
half of these false convictions involved the misapplication of 
forensic science, most often because of the lack of science 
standards and training, but in some cases involving misconduct. 
I am deeply troubled by the likelihood that these numbers 
represent just the tip of the iceberg.
    As revealed over many years of investigative reporting by 
the Washington Post, for decades there were people in this 
system who knew there were significant problems and stayed 
silent or perhaps tried to speak up but were silenced by those 
above them.
    The 2009 report from the National Academy of Sciences 
(NAS), ``Strengthening Forensic Science in the United States: A 
Path Forward'' finally broke the silence and brought this issue 
into the public discourse. The central conclusion of the report 
was that the interpretation of forensic evidence across many 
disciplines was severely compromised by the lack of supporting 
science and standards. The National Academies recommended a 
number of steps to improve the accuracy, reliability, and 
validation for forensic evidence.
    With a focus on the role of Federal science agencies, 
especially the National Institute of Standards and Technology 
(NIST), in 2012, I joined colleagues in the Senate to introduce 
the Forensic Science and Standards Act. I continued to 
reintroduce that legislation, but it never received a hearing 
until today.
    As forensic science plays an increasing role in our 
criminal justice system, we are here today to explore how the 
Science Committee can help improve forensic science practices 
in the Nation. We'll learn about improvements since the NAS 
report, with an eye to the improvements that will need to be 
made. We will hear from the witnesses their recommendations on 
how to strengthen existing legislation. This is an excellent 
panel representing diverse perspectives, and we have a lot to 
learn from you.
    We have all heard heartbreaking stories of men and women 
who have spent years, sometimes decades, in prison for a crime 
they did not commit. These wrongful convictions take a profound 
human toll on innocent men and women and their families and mar 
the reputation of the justice system. And that's not all. One 
study of 108 DNA exoneration cases found that 121 of the actual 
perpetrators went on to commit an additional 337 crimes, 
including rape and murder.
    However, I am encouraged by all of the new partnerships and 
efforts among the various stakeholders that were spurred by the 
National Academies report. I look to my own State of Texas, 
which has a troubled history with false convictions, as an 
exemplar for forensic science transparency and improvements. If 
we can do this in Texas, we can do this anywhere.
    I look forward to a spirited discussion and to working with 
my colleagues across the aisle to move bipartisan legislation 
through this Committee. And I thank the expert witnesses for 
your testimony today.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to today's hearing.
    The criminal justice system relies on forensic science to 
identify and prosecute criminals and exonerate the falsely 
accused. Unfortunately, for too long, the science in forensic 
science was a misnomer. According to data from the Innocence 
Project, 367 individuals convicted of violent crimes across 37 
states have been exonerated as a result of DNA evidence.
    Nearly half of these false convictions involved the 
misapplication of forensic science, most often because of a 
lack of science, standards, and training, but in some cases 
involving misconduct. I am deeply troubled by the likelihood 
that these numbers represent just the tip of the iceberg.
    As revealed over many years of investigative reporting by 
the Washington Post, for decades there were people in this 
system who knew there were significant problems and stayed 
silent, or perhaps tried to speak up but were silenced by those 
above them. A 2009 report from the National Academies, 
Strengthening Forensic Science in the United States: A Path 
Forward, finally broke the silence and brought this issue into 
the public discourse. The central conclusion of the report was 
that the interpretation of forensic evidence, across many 
disciplines, was severely compromised by the lack of supporting 
science and standards.
    The National Academies recommended a number of steps to 
improve the accuracy, reliability, and validity of forensic 
evidence. With a focus on the role of Federal science agencies, 
especially the National Institute of Standards and Technology, 
in 2012, I joined colleagues in the Senate to introduce the 
Forensic Science and Standards Act. I continued to reintroduce 
that bill but it never received a hearing, until today.
    As forensic science plays an increasing role in our 
criminal justice system, we are here today to explore how the 
Science Committee can help improve forensic science practices 
in the nation. We'll learn about improvements since the NAS 
report, with an eye to the improvements that still need to be 
made. We will hear from the witnesses their recommendations for 
how to strengthen the existing legislation. This is an 
excellent panel representing diverse perspectives and we have a 
lot to learn from you.
    We have all heard heartbreaking stories of men and women 
who have spent years, sometimes decades in prison for a crime 
they did not commit. These wrongful convictions take a profound 
human toll on innocent men and women and their families and mar 
the reputation of our justice system. And that's not all. One 
study of 108 DNA exoneration cases found that 121 of the actual 
perpetrators went on to commit an additional 337 crimes, 
including rape and murder.
    However, I am encouraged by all of the new partnerships and 
efforts among the various stakeholders that were spurred by the 
National Academies report. I look to my own state of Texas, 
which has a troubled history with false convictions, as an 
exemplar for forensic science transparency and improvements. If 
we can do it in Texas, we can do it anywhere.
    I look forward to a spirited discussion and to working with 
my colleagues across the aisle to move bipartisan legislation 
through this Committee. And I thank the expert panel for your 
testimony today.

    Chairwoman Johnson. I now will recognize Mr. Lucas.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding 
today's hearing on the state of forensic science in the United 
States.
    Forensic science is the study and application of science to 
matters of law. As Members of the Science Committee, we're 
focused on the science part of the equation, but we can't 
ignore the law either. The integrity of forensic science can 
have a profound impact on the lives of Americans who are 
victims of crime and those accused of committing a crime.
    The Constitution states only one command twice. The Fifth 
Amendment says to the Federal Government that no one shall be 
``deprived of life, liberty or property without due process of 
law.'' The Fourteenth Amendment uses the same 11 words, called 
the due process clause, to describe a legal obligation of all 
States. These words are a commitment to fair trials and 
judgments at all levels of American government.
    This is important because most forensic science methods, 
programs, and evidence are governed by State and local law 
enforcement entities or are covered by statutes and rules 
governing State judicial proceedings. Our task is to look at 
what role the Federal Government can play to advance the 
accurate, reliable, and fair use of forensic science. As 
forensic science plays an increasing role in our criminal 
justice system, it is important to make sure we are getting the 
science right and that all Americans have confidence in the 
fairness and integrity.
    DNA evidence has revolutionized the justice system. When 
properly collected and analyzed, DNA can be useful to identify 
criminals with incredible accuracy. DNA can also be used to 
clear subjects and exonerate people mistakenly accused of 
committing crimes.
    To date, over 350 individuals have been totally exonerated 
by DNA analysis. The science of DNA is well-established, but 
there are many other areas of forensic science that are still 
evolving such as human hair analysis and bite mark 
identification. The truth is forensic science is more complex 
than what is portrayed on popular television shows.
    Even when the science is well-supported, putting it into 
practice in the field is a challenge. In many small police 
departments across the country, law enforcement is not afforded 
the luxury of specialization due to the community's size and 
caseload. Not all police officers can be experts in collecting 
and evaluating forensic evidence and may not be able to utilize 
groundbreaking new tools.
    The National Science Foundation (NSF) and the National 
Institute of Standards and Technology can help address this. 
Both agencies do important work on forensic science, 
strengthening fundamental research and improving standards for 
the practice of forensic science in criminal investigation. I 
have said before that many Americans may not know the critical 
role NIST plays in our Nation's innovation.
    Today is another fine example. We will hear more about 
their research in several forensic science disciplines and 
their administration of the Organization of Scientific Area 
Committees on Forensic Science (OSAC). Through OSAC, NIST is 
bringing together experts in science, measurement, statistics, 
law, and policy to develop and evaluate forensic science 
standards. It is challenging work getting these communities to 
cooperate, and I look forward to hearing how that process is 
going and any recommendations to make it better.
    As the Chairwoman stated, it has been 10 years since the 
National Research Council issued their report, ``Strengthening 
Forensic Science in the United States: A Path Forward.'' I'm 
glad we have this opportunity to hear what progress has been 
made since then and what work still needs to be done.
    We have a distinguished panel of witnesses today who will 
represent the science, law enforcement, and legal communities 
to help us understand the challenges and opportunities in 
forensics. I look forward to a balanced discussion of how we 
can all work together to ensure Americans trust in the use of 
science in our criminal justice system.
    Thank you again, and I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson for holding today's hearing 
on the state of forensic science in the United States.Forensic 
science is the study and application of science to matters of 
law. As Members of the Science Committee, we're focused on the 
science part of the equation. But we can't ignore the law 
either. The integrity of forensic science can have a profound 
impact on the lives of Americans who are victims of crime, and 
those accused of committing a crime.
    The Constitution states only one command twice. The Fifth 
Amendment says to the federal government that no one shall be 
``deprived of life, liberty or property without due process of 
law.'' The Fourteenth Amendment uses the same eleven words, 
called the Due Process Clause, to describe a legal obligation 
of all states.
    These words are a commitment to fair trials and judgments 
at all levels of American government.
    This is important because most forensic science methods, 
programs, and evidence are governed by state and local law 
enforcement entities or are covered by statutes and rules 
governing state judicial proceedings.
    Our task is to look at what role the federal government can 
play to advance the accurate, reliable, and fair use of 
forensic science.
    As forensic science plays an increasing role in our 
criminal justice system, it is important to make sure we are 
getting the science right and that all Americans have 
confidence in its fairness and integrity.
    DNA evidence has revolutionized the justice system. When 
properly collected and analyzed, DNA can be used to identify 
criminals with incredible accuracy. DNA can also be used to 
clear suspects and exonerate people mistakenly accused or 
convicted of crimes. To date, over 350 individuals have been 
totally exonerated by DNA analysis.
    The science of DNA is well established, but there are many 
other areas of forensic science that are still evolving, such 
as human hair analysis and bite mark identification. The truth 
is forensic science is more complex than what is portrayed on 
popular television shows.
    Even when the science is well supported, putting it into 
practice in the field is a challenge. In many small police 
departments across the country, law enforcement is not afforded 
the luxury of specialization due to the community's size and 
case load. Not all police officers can be experts in collecting 
and evaluating forensic evidence and may not be able to utilize 
groundbreaking new tools.
    The National Science Foundation (NSF) and the National 
Institute of Standards and Technology (NIST) can help address 
this. Both agencies do important work on forensic science, 
strengthening fundamental research and improving standards for 
the practice of forensic science in criminal investigation.
    I have said before that many Americans may not know the 
critical role NIST plays in our nation's innovation. Today is 
another fine example.
    We will hear more about their research in several forensic 
science disciplines, and their administration of the 
Organization of Scientific Area Committees on Forensic Science 
(OSAC).
    Through OSAC, NIST is bringing together experts in science, 
measurement, statistics, law and policy to develop and evaluate 
forensic science standards. It is challenging work getting 
these communities to cooperate, and I look forward to hearing 
how that process is going and any recommendations to make it 
better.
    As the Chairwoman stated, it has been ten years since the 
National Research Council issued their report, ``Strengthening 
Forensic Science in the United States: A Path Forward.'' I'm 
glad we have this opportunity to hear what progress has been 
made since then, and what work still needs to be done.
    We have a distinguished panel of witnesses today who 
represent the science, law enforcement, and legal communities 
to help us understand the challenges and opportunities in 
forensics.
    I look forward to a balanced discussion of how we can all 
work together to ensure American trust in the use of science in 
our criminal justice system.
    Thank you, and I yield back.

    Chairwoman Johnson. Thank you, Mr. Lucas.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I'd like to introduce our witnesses. Our first 
witness is Ms. Susan Ballou. Ms. Ballou is a Program Manager 
for the Forensic Science Research Program within the Special 
Programs Office of NIST. Prior to her time at NIST, she worked 
as a lead serologist for the Montgomery County Police 
Department Crime Laboratory in Rockville, Maryland. She has 
obtained expert status in Federal, State, and county circuit 
and district courts.
    She holds a master of science in biotechnology from the 
Johns Hopkins University and a degree in criminal justice from 
the University of New Haven in Connecticut.
    Our next witness, Ms. Lynn Garcia. Ms. Garcia is the 
General Counsel for the Texas Forensic Science Commission, a 
position she has held since December 2010. In this role, she 
assists the commission with investigations, manages the 
commission's laboratory accreditation and analyst licensing 
program, provides legal advice, and represents the commission 
at various public meetings. She obtained her J.D. from 
Georgetown University Law Center.
    I would now like to recognize the Ranking Member Mr. Lucas 
to introduce the next witness.
    Mr. Lucas. Thank you, Madam Chair. And it's my honor to 
introduce my fellow Oklahoman, Ms. Vicki Zemp Behenna, who 
serves as the Executive Director of the Oklahoma Innocence 
Project. She was previously an Assistant United States Attorney 
for the Western District of Oklahoma, where she served with 
distinction for 25 years. As a prosecutor, she was involved in 
many high-profile cases, including serving on the team that 
prosecuted and attained the conviction of Timothy McVeigh in 
the Oklahoma City bombing case. The recipient of numerous 
awards in her career and she's now in private practice teaching 
as an adjunct professor at Oklahoma City University School of 
Law.
    She received her bachelor's degree in journalism from the 
University of Oklahoma and her J.D. from the Oklahoma City 
University School of Law. Welcome and thank you for 
participating today, Vicki.
    Chairwoman Johnson. Thank you, Mr. Lucas.
    Our fourth witness is Dr. Karen Kafadar. Dr. Kafadar is 
Commonwealth Professor and Chair of Statistics at the 
University of Virginia. She currently serves as the President 
of the American Statistical Association. She served on the 
National Academy of Sciences committee that led to the 
publication of the 2009 report, ``Strengthening the Forensic 
Science System in the United States: A Path Forward.'' She also 
previously chaired the Organization of Scientific Area 
Committees Statistical Task Group. Dr. Kafadar's research 
focuses on robust methods, characterization of uncertainty in 
the physical, chemical, biological, and engineering sciences 
and methodology for the analysis of screening trials.
    She received her B.A. and M.S. from Stanford University and 
her Ph.D. in statistics from Princeton University.
    Our final witness is Mr. Matthew Gamette. Mr. Gamette is 
Crime Lab Director with the Idaho State Police Forensic 
Services, a position he has held since 2014. He previously 
worked in the Spokane Laboratory of Washington State Patrol. 
Mr. Gamette currently serves as an elected board member of the 
American Society of Crime Lab Directors where he is President 
and Chair of the Advocacy Committee. He's also served as Chair 
of the Consortium of Forensic Science Organizations. In 
addition, he currently serves on the NIST Organization of 
Scientific Area Committees Quality Infrastructure Committee.
    He received his bachelor's and master's degrees from 
Brigham Young University.
    As our witnesses know, you will have 5 minutes for your 
spoken testimony. Your written testimony will be included in 
the record for the hearing. And when you have completed your 
spoken testimony, we will begin questions. Each Member will 
have 5 minutes to question the panel.
    We will start now with Ms. Ballou.

                   TESTIMONY OF SUSAN BALLOU,

          PROGRAM MANAGER, OFFICE OF SPECIAL PROGRAMS,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Ms. Ballou. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, I am Susan Ballou, the Program 
Manager of the Forensic Science Research Program at the 
Department of Commerce's National Institute of Standards and 
Technology known as NIST. Thank you for the opportunity to 
appear before you today to discuss NIST's role in forensic 
science. I'll address three different ways that NIST 
contributes to forensic science: Research, development of 
reference materials standards and guidelines, and convening the 
forensic science community.
    NIST established six focus areas of research: Firearms and 
associated tool marks, digital and identification forensics, 
forensic genetics, statistics, toxins, and trace. NIST 
frequently collaborates with other Federal agencies including 
the FBI (Federal Bureau of Investigation), DEA (Drug 
Enforcement Administration), DOD (Department of Defense), ATF 
(Bureau of Alcohol, Tobacco, Firearms and Explosives), and DHS 
(Department of Homeland Security), as well as State and local 
crime laboratories to identify key research areas.
    The release of the 2009 National Research Council report 
highlighted areas where forensic science research was needed 
and made recommendations for improvements. NIST built on this 
report in areas related to strengthening the scientific 
foundation of forensic science examinations and focused on 
improving AFIS (Automated Fingerprint Identification System) 
interoperability and application of statistics to firearm 
examinations.
    In 2012, NIST, based on collaboration with DOJ's National 
Institute of Justice, developed a process map of the steps 
involved in latent print examination. Important improvements 
have been made, and process maps are being created for other 
forensic disciplines, including handwriting, DNA, and firearms 
analysis.
    Digital evidence is a growing area in forensic science. 
Ensuring the reliability of software tools used to extract data 
from computers and mobile devices is a critical need within the 
law enforcement community. NIST is actively assisting in 
testing computer forensic software tools. NIST also maintains 
the National Software Reference Library, which is used to 
improve efficiency in criminal investigation digital searches.
    NIST research over the last 30 years has resulted in many 
improvements in DNA measurement. For example, NIST developed 
Standard Reference Materials or SRMs such as the human DNA 
standard. This SRM is used by DNA labs to make sure their 
instruments and methods are working properly, enabling accurate 
measurements of DNA markers commonly used in forensic 
laboratories worldwide for human identification. NIST continues 
to lay the statistical foundation for calculating match 
statistics that can help in cases with evidence that contain a 
mixture of DNA from several people.
    To assist in firearms analysis, NIST has created a standard 
bullet and cartridge case to provide a calibrated measuring 
service to ensure 3-D surface scanning microscopes are properly 
calibrated. The SRM also improves interoperability between law 
enforcement agencies which increased hits across State borders 
resulting in law enforcement labs digitally comparing bullets 
and enabling confirmation that the same weapon was used in 
multiple crimes across multiple jurisdictions.
    NIST research into the forensic science field of trace work 
on paint, glass, hair, fibers, and tape is breaking new ground. 
Using scientific methods, hair could be profiled using protein 
in the hair shaft. In this way, two specific hairs, one from a 
suspect and one from a crime scene, could be compared and given 
a stronger probability of having come from the same person. To 
identify anonymous hair found at a crime scene, a library of 
cataloged hair could be created much like the DNA database.
    NIST has conducted research into trace detection of opioids 
and other illegal drugs to validate the accuracy of the 
identification and quantification of controlled substances. 
NIST is also developing methods to help investigators detect 
drugs at crime scenes, in cargo, at transit hubs, and tools to 
identify emerging synthetic and designer drugs. Detecting trace 
amounts can prevent exposure of first responders to these 
harmful drugs and identify the types of illicit fentanyl that 
drug dealers may lace their supply with. This research can also 
help first responders in determining the source of an overdose 
and how to treat the overdose victim.
    Five years ago, NIST established the Organization of 
Scientific Area Committees for Forensic Science, or OSAC, to 
facilitate the development and promulgation of consensus-based 
documentary standards and guidelines. OSAC has a broad 
representation of stakeholders from the forensic science, 
legal, law enforcement, and research communities with more than 
550 participants from 48 States. NIST stands ready to assist 
the forensic science community.
    Thank you for the opportunity to testify on NIST's work 
regarding forensic science, and I'll be pleased to answer any 
questions you may have.
    [The prepared statement of Ms. Ballou follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Ms. Garcia.

                    TESTIMONY OF LYNN GARCIA,

       GENERAL COUNSEL, TEXAS FORENSIC SCIENCE COMMISSION

    Ms. Garcia. Chairwoman Johnson, Ranking Member Lucas, and 
Members, my name is Lynn Garcia, and I'm the General Counsel of 
the Texas Forensic Science Commission (Commission). Thank you 
for inviting me here to discuss the progress Texas has made in 
the 10 years since the NAS report was published.
    The Texas legislature created our Commission in 2005 in the 
wake of a crisis in the Houston Police Department crime lab. At 
first, the legislature gave our Commission one job: To 
investigate allegations of professional negligence and 
misconduct against forensic laboratories. Over time, the 
Commission has evolved into an oversight body that crime labs, 
law enforcement, and attorneys all rely upon for fair 
consideration of scientific issues. We have nine members--seven 
scientists and two attorneys--all appointed by the Governor of 
Texas.
    Using the core values of transparency, accountability, and 
collaboration, the Commission has taken on major initiatives in 
many of the areas mentioned in the NAS report. For example, we 
recognize that national accreditation programs under ISO are 
important but not a panacea. We use our statutory authority to 
supplement the work of the accrediting bodies, including 
additional audits, where needed.
    We also require our forensic analyst to be licensed. In the 
rare case that an analyst commits professional misconduct in 
our State, he or she may face disciplinary action up to and 
including revocation of the license. We maintain a code of 
professional responsibility for analysts and crime lab 
management so that everyone shares the same expectations. We 
provide ongoing guidance on challenging scientific issues from 
DNA mixture interpretation to efficient analytical methods for 
distinguishing hemp from marijuana. We also act as a 
facilitator and translator between the scientific and legal 
communities.
    Texas law requires crime labs to self-disclose 
nonconformities. We provide an open and transparent venue for 
resolving them outside of the adversarial system. We also 
partner with the Court of Criminal Appeals to promote forensic 
education and training of judges and lawyers, and we recently 
worked with the Texas Commission on Law Enforcement to improve 
crime scene training provided to peace officers.
    Finally, and this is a recent development, we're partnering 
with NIST in two key areas. The first is in the evaluation of 
OSAC standards for implementation in Texas, and the second is 
with respect to improving existing accreditation programs for 
our laboratories. One area where we could use Federal support 
is for forensic science research such as the initiatives 
contemplated by H.R. 5795. State and local crime labs face 
tremendous caseload demands, thus leaving precious little time 
for research. While we strongly believe the oversight of 
forensic laboratories should be left to the States, increased 
support from the Federal Government for forensic research would 
be helpful not just for Texas but for all States.
    We would also like to stress the need to reauthorize the 
Debbie Smith Act. This legislation dedicates much-needed 
resources to State and local law enforcement agencies to 
conduct forensic analyses of crime scenes, including untested 
sexual assault kits.
    I would like to close my remarks by reading a few lines 
from the murder trial of Steven Mark Chaney from Dallas, Texas. 
Mr. Chaney was sentenced to life in prison and served 28 years. 
The lines I'm about to read are from the direct examination of 
a forensic dentist who testified as the State's expert. 
Question: ``Can you express your opinion?'' Answer: ``With 
reasonable dental certainty and scientific certainty I feel 
that Steven Mark Chaney made the bite mark on John Sweek.'' 
Question: ``And you also testified that someone else in the 
world possibly could have made that bite mark. Do you have any 
odds?'' Answer: ``One to a million.'' Question: ``Does that 
appear in the scientific literature?'' Answer: ``Yes.''
    On December 19, 2018, Mr. Chaney was declared actually 
innocent by the Texas Court of Criminal Appeals, the State's 
highest criminal court. The Commission reviewed a complaint 
filed by Mr. Chaney regarding the bite mark analysis in his 
case. Our members examined published literature, listened to 
presentations from a range of forensic dentists, including 
those who support the use of bite mark comparison and those who 
do not. And after listening to all sides, the Commission 
recommended bite mark comparison not be admitted in criminal 
trials unless and until sufficient data exists to indicate that 
such comparisons can be made reliably and accurately.
    While we understand and appreciate our commission is not a 
court and gatekeeping decisions are ultimately the 
responsibility of the judiciary, we try to provide useful 
information to judges to assist them in making difficult 
gatekeeping decisions. What we found that is that, by and 
large, they welcome the information. The vast majority of 
judges want nothing more than to make the right call. They just 
don't always have the tools they need to do it.
    Texas is a law-and-order State, and with that core value 
comes great responsibility. The Texas legislature understands 
this, the Governor of Texas understands this. Legislators from 
both parties have worked session after session to create 
meaningful progress when it comes to the quality of forensic 
science used in our State.
    Is it perfect? No. Do we still have work to do? Absolutely. 
But in reflecting upon the last decade, Texas has shown 
tremendous leadership in forensic science reform. It has been 
an honor for me to share that story with you today, and I'll 
happily answer any questions. Thank you.
    [The prepared statement of Ms. Garcia follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Ms. Behenna.

                TESTIMONY OF VICKI ZEMP BEHENNA,

         EXECUTIVE DIRECTOR, OKLAHOMA INNOCENCE PROJECT

    Ms. Behenna. Thank you, Chairwoman Johnson and Ranking 
Member Lucas and distinguished Members of this Committee for 
the opportunity to discuss with you the intersection of 
forensic science in criminal trials.
    My name is Vicki Behenna, and I became the Executive 
Director of the Oklahoma Innocence Project in October 2015. 
Oklahoma City University houses the Oklahoma Innocence Project.
    As previously stated, I was a Federal prosecutor for 25 
years. As part of my experience as being a Federal prosecutor, 
I had the opportunity to assist in the prosecution of Timothy 
McVeigh. That was my first experience with the use of forensic 
science in a criminal prosecution.
    In 2009, I had a personal experience where a close family 
member of mine was going through a trial where forensic science 
was hidden. Exculpatory evidence was not provided, leading to 
his conviction. It was that experience that caused me to retire 
as a Federal prosecutor after 25 years and to join the Oklahoma 
City Innocence Project because I understood from personal 
experience the effect bad forensic science or Brady violations 
can have on individuals who are accused in our criminal justice 
system.
    The weight that forensic science plays in modern trials 
cannot be overstated. Lawyers, while we like to think that we 
know everything about our case, cannot know science as well as 
the scientists do. As a prosecutor, when a forensic scientist 
or analyst came into my office and explained to me what this 
forensic science meant and its value in the prosecution of the 
case I was trying became increasingly important to me, and I 
relied upon that expert's opinion.
    What we have seen in Oklahoma through an individual by the 
name of Joyce Gilchrist, who was a chemist with the Oklahoma 
City Police Department, is that when forensic scientists and 
analysts overstate the interpretation of forensic science, when 
they overstate hair analysis, when they overstate and use bite 
mark evidence and tell the prosecutor that that evidence 
proves--that bite mark proves that this individual committed--
or was there and committed this act, we rely upon that, as I 
said before, because lawyers can never know the science as well 
as the scientists and analysts do.
    Juries in our criminal justice system are the triers of the 
facts. That's their role. They listen to the evidence that's 
presented. They listen to the expert testimony given, and they 
judge witness demeanor and credibility based upon their role of 
being the judges of the facts. When experts come into a 
courtroom and they tell the jury this hair came from this 
individual or they give a statistical number that this hair 
could only have come from this many individuals in society, 
jurors believe that. They rely upon that in making decisions. 
When bad forensic science is used, the results are devastating 
for those who are accused of crimes in our criminal justice 
system.
    What I see with the Oklahoma Innocence Project is that many 
times people serve decades in prison based upon bad forensic 
science. Not all individuals and forensic scientists are like 
Joyce Gilchrist. And I hate to keep coming back and using that 
as an example, but it's something that happened in Oklahoma's 
present and as part of what's happened in our modern history. 
But we need standards. Lawyers need standards. Judges need 
standards. And we need to rely on the forensic scientists when 
they're testifying in court are testifying honestly and openly 
about the science they've been asked to testify about.
    The Innocence Project has made numerous recommendations 
that are part of my written testimony, and I won't go over that 
here, but our criminal justice system is designed to seek the 
truth. It is designed to equally protect victims and the 
accused. Because of the highly persuasive impact of forensic 
science and forensic experts have on the scales of justice, 
it's imperative that the science is validated and that forensic 
experts are supported with the scientific resources they need 
and that judges are properly educated in their gatekeeping 
functions. Thank you.
    [The prepared statement of Ms. Behenna follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Dr. Kafadar.

                 TESTIMONY OF DR. KAREN KAFADAR,

         PROFESSOR AND CHAIR, DEPARTMENT OF STATISTICS,

             UNIVERSITY OF VIRGINIA, AND PRESIDENT,

                AMERICAN STATISTICAL ASSOCIATION

    Dr. Kafadar. Madam Chair, Members of the Committee, thank 
you for inviting me here today. I'm Karen Kafadar, Chair of 
Statistics at the University of Virginia, also President of the 
American Statistical Association, which has 18,000 members from 
93 countries. I was an author of the 2009 report, which 
emphasized the need for more collaborative research between 
forensic scientists and the physical, chemical, biological, and 
statistical scientists.
    At the Committee's request, I'll just talk about the role 
of the sciences and statistics in advancing forensic science 
and standards, progress since the report, challenges that 
remain, and recommendations to continue progress and overcome 
these challenges, namely centralized leadership, funding for 
research, and guidance to the courts.
    First, forensic science in general progresses through 
research collaborations. Statistics plays a key role in 
evaluating proposed methods and interpreting data. The NAS 
report highlighted these roles and made stronger connections 
between the forensic science community and other non-forensic 
scientists and statistical experts, leading to more reliable 
forensic methods.
    What progress has been made since the report? First, Chair 
Johnson and other Members of Congress raised awareness of this 
critical issue. Second, DOJ and NIST formed the National 
Commission on Forensic Science. Commissioners cooperated and 
issued effective and constructive statements on forensic 
practice and testimony. DOJ disbanded this commission after 
only 13 meetings.
    Third, NIST created forensic science standards 
organizations whose mission has been to endorse existing 
standards for forensic practice. OSAC is comprised primarily of 
those invested in the current system with only a few 
researchers who could be considered as being at arm's length to 
the existing forensic science system; thus, little change can 
be seen in the standards that OSAC approves.
    And fourth, with congressional allocation of funds for 
competitively selected Center of Excellence to focus on 
foundational research in pattern and digital evidence. Through 
a cooperative agreement with NIST, this consortium of five 
universities has been interacting with forensic practitioners 
and crime labs and has achieved much practical research in 4 
years, but the mandate is limited to research and training in 
only two disciplines.
    Challenges remain. The report from PCAST (President's 
Council of Advisors on Science and Technology), by the way, in 
2016 reinforced the continued shortcomings 7 years after the 
NAS report. Efforts are being made to address them, but key 
problems remain: lack of centralized leadership by an agency 
with the expertise and commitment to develop forensic 
disciplines and enforce standards grounded in science with 
proper statistical analyses; a dearth of studies with honest 
demonstrations of validity and reliability; inadequate funding 
for these studies to support an independent agency; and lack of 
guidance to the courts on how to handle forensic evidence that 
is relevant but at best inconclusive.
    With my colleagues I offer three recommendations. I do not 
think any of them will be new to NIST. First, an existing 
agency must take the lead. The NAS report emphasized that this 
lead agency cannot be law enforcement. NIST has taken the lead 
in improving forensic science. It can continue to develop 
mechanisms to support validation and reliability studies for 
forensic methods, build connections with practitioners, and 
remain independent of law enforcement. Its agenda should be 
informed by the forensic community but not be beholden to it.
    Second, the OSAC currently is composed of mostly forensic 
practitioners with few arm's-length researchers. It can improve 
existing standards but cannot modify them. OSAC approves 
standards that have been based on past practice. This is not 
progress. Forensic standards cannot be issued if research 
underlying them has not been conducted. Real progress is more 
likely if OSAC units were closer to the 50-50 balance between 
forensic community representatives and arm's-length scientists 
who together can identify research needed to improve them.
    And finally, more research is needed beyond two disciplines 
in the present Center of Excellence. Research in other 
disciplines may require more funded centers whose research 
agendas are coordinated. Work arising from these centers, 
especially regarding validation and reliability, should inform 
OSAC decisions even when they challenge existing practice. If 
these recommendations are adopted, we can have proper standards 
on which the courts can rely with confidence.
    In short, we have seen some progress but more is needed. 
Without it, courts remain undirected and we have false 
convictions and false acquittals. With proper leadership those 
situations can be reversed. Thank you.
    [The prepared statement of Dr. Kafadar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Mr. Gamette.

                  TESTIMONY OF MATTHEW GAMETTE,

                       CRIME LAB DIRECTOR,

              IDAHO STATE POLICE FORENSIC SERVICES

    Mr. Gamette. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to come 
on behalf of the American Academy of Forensic Sciences (AAFS) 
and testify today.
    Since 1948, the American Academy has served a distinguished 
and diverse membership of over 6,000 members divided into 11 
sections of physicians, attorneys, dentists, toxicologists, 
anthropologists, document examiners, digital evidence experts, 
psychiatrists, physicists, engineers, criminalists, educators, 
researchers, and others.
    I'm also here representing the Consortium of Forensic 
Science Organizations (CFSO). CFSO was formed in 2000 and is an 
association of six major forensic science professional 
organizations with a membership of over 21,000 forensic science 
professionals.
    I am currently the Laboratory System Director for the Idaho 
State Crime Lab System. And since I started over 17 years ago, 
forensic science as a profession has evolved and advanced, 
quality management has intensified, and standards and 
development has increased.
    The National Academy of Sciences' study in 2009 was a 
significant event in our community. The study supported the 
forensic science community's ongoing efforts to improve the 
practice and forensic science as a whole. With support from the 
Federal Government, we have implemented many of the 
recommendations from the report. Efforts such as the White 
House Subcommittee on Forensic Science, the National Commission 
on Forensic Science, the NIST OSAC, the PCAST report, and 
discipline-specific research and validation studies have 
advanced the practice of forensic science. Other Federal 
efforts have been put in place to advance the science such as 
the Forensic Laboratory Needs Technology Working Group, the 
Forensic Science Technology Working Group, and the Council of 
Federal Forensic Laboratory Directors.
    These efforts are addressing currently accreditation and 
certification, quality assurance, standards development, and 
implementation, methods and protocols, education and training, 
ethics, terminology, research, technology transfer, discovery 
and transparency, statistics, standardized language and 
reporting, and expert testimony.
    Participation has spanned to at least 23 Federal 
departments and agencies, thousands of Federal, State, and 
local scientists and stakeholders. Since 95 percent of the 
forensic science that happens in this country is performed at 
the State, county, and local level, it is critical to include 
all forensic, Federal, State, and local partners.
    Federal working groups have worked on the accreditation of 
forensic science service providers, the certification of 
forensics examiners, and medicolegal personnel, proficiency 
testing, a national forensic science code of ethics, standards, 
research and development, and technology transfer.
    One particularly helpful initiative has been the NIST OSAC. 
OSAC works to strengthen the Nation's use of forensic science 
by facilitating the development of technically sound forensic 
science standards and promoting their adoption. These standards 
are written documents that define the minimum requirements, 
best practices, standard protocols, and other guidance to help 
ensure that the results of forensic analysis are reliable and 
reproducible.
    The more than 550 members are experts from Federal, State, 
county, and local government agencies, academic institutions, 
and private entities with expertise in over 25 forensic science 
disciplines. OSAC is highly collaborative in their processes. 
OSAC efforts have expanded into identification and 
prioritization of research needs that can be accomplished at 
NIST, NIJ (National Institute of Justice), and other Federal 
agencies.
    The DOJ has developed guidance documents for uniform 
language and testimony and reports for all Federal 
laboratories. While research, including black-and-white box 
studies, is increasing, more resources must be dedicated to 
bolstering the scientific framework and open access publication 
of findings.
    Findings for research and funding for research has been 
sparse at best. Data shows that most major forensic science 
providers are accredited and have quality control programs. 
Most forensic science practitioners are accountable to one or 
more codes of professional conduct. Our community has adopted 
many of the recommendations from a variety of committees, 
commissions, and boards.
    In conclusion, our needs for a successful forensic 
enterprise are fairly simple. One, we need continued support of 
the Federal Government to fund efforts to increase forensic 
laboratory and medical examiner capacity, capability, and 
training. Two, we need the OSAC codified at NIST with 
sustainable funding. Three, we need fiscal and operational 
support for laboratory and medical examiner office 
accreditation and forensic science providers certification. We 
need, finally, a coordinated and well-funded Federal research 
strategy that includes close partnership of practitioners and 
researchers.
    Providers are seeing an unprecedented increase in the work 
needed to investigate criminal cases. A needs assessment of 
laboratories and medical examiners is imminent from the 
Department of Justice, and we understand that there are dollar 
figures associated with those needs. I would urge this 
Committee to review those reports while contemplating any new 
legislation that may affect the operation of forensic science 
service providers.
    It is vitally important to the criminal justice system in 
the United States to properly resource forensic science in the 
United States. A healthy and robust forensic science provider 
network is important for this country to prosecute true 
perpetrators, exonerate the innocent, and provide closure for 
victims of crime.
    We thank you again for this Committee taking this issue 
seriously and helping us address this issue, and I would also 
stand for any questions.
    [The prepared statement of Mr. Gamette follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. We now will begin 
our questions part. And I'll yield myself 5 minutes.
    Ms. Garcia, I want to commend you and the Commission for 
your efforts to date for transparency about the ongoing 
challenges and for your continued push for improvement. Texas 
is probably not the first State most people would think about 
as a model for forensic reform. Yet you have achieved 
significant improvements over the last several years. Can you 
offer any recommendations about best practices or core 
principles for achieving forensic reform that could apply to 
any State?
    Ms. Garcia. Thank you, Madam Chairwoman. I think one of the 
reasons we've had success in Texas is because, number one, we 
have a legislative process, as you well know, that is very up 
close and personal. And so the members of the legislature in 
Texas spend a lot of time hearing the stories from exonerees, 
real-life issues that come up about particular areas of 
forensic science that may have contributed in some part to a 
wrongful conviction. Those messages resonate. So that's part of 
it, our legislative process.
    But the main thing I would say is we have tried our best to 
create a culture in our Commission where we take the 
adversarial process and set it aside to have a genuine 
conversation in a transparent manner about what are the issues 
that are being faced by lawyers, by judges, by the forensic 
scientists. The labs bring their issues to us in the form of 
self-disclosure, and we talk about them in a public meeting. 
And that goes a long way to understanding and resolving some of 
the hardest issues that we have.
    We don't shy away from reviewing things retroactively. If 
we've identified a problem such as when the FBI came out and 
said they had all these problems with the hair microscopy 
analysis, we looked at all those cases. We don't shy away from 
that, same thing with DNA mixture interpretation. And it takes 
as long as it takes, and we get the resources we need to 
address it and we do it together. So hopefully that answered 
your question.
    Chairwoman Johnson. Thank you very much. Ms. Behenna, at 
the risk of inviting the joke of the Texas-Oklahoma rivalry, 
are there discussions in Oklahoma about studying the Texas 
model for best practices that might be implemented in your 
State and others?
    Ms. Behenna. We are working--and I say we, the Oklahoma 
Innocence Project is working with the State Bureau of 
Investigation to review cases in particular where hair analysis 
was used and possibly could have resulted in a wrongful 
conviction. It is more of an ad hoc basis right now rather than 
a collaborative effort, which is what is going on in Texas.
    There is much discussion in Oklahoma about criminal justice 
reform. Part of that discussion is trying to do in a more 
systematic way review of cases where bad or debunked forensic 
science has been used and its effect on possibly convicting 
somebody who was innocent, but not systematically, as I said, 
as you all have experienced in Texas.
    Chairwoman Johnson. Thank you. The 2009 National Academy of 
Sciences report was the first organized voice of scientists, 
practitioners, and other experts recognizing the limitation of 
pattern evidence techniques and the urgent need to address 
these limitations. What are the most important advances in the 
use of application for forensic science in the past decade? And 
this is going to be for everyone. The second question is, what 
in your view are currently the most significant weaknesses 
regarding the use of application of forensic science? And I'll 
start with you, Ms. Ballou.
    Ms. Ballou. NIST realized there were issues with the 
comparison of fingerprints and bullets, using what we call 
different techniques of the pattern evidence, and, therefore, 
establishing more of a measurement process where you would 
actually have an algorithm that was recognizing the comparison 
process and giving a numerical value to the examiner would 
increase the value of what they're seeing between those type of 
comparisons. And that's what the National Academies addresses, 
that it was more of a visual comparison by the scientists 
instead of having a numerical support.
    Chairwoman Johnson. Thank you.
    Ms. Garcia. I would say in terms of most important, I think 
there was a recognition that the way it's been done for a long 
time through apprenticeship, you know, one person teaching the 
next person who teaches the next person about a technique, 
recognizing that that is not the best way to go about a 
scientific analysis, that was important. In Texas what we 
realized is that is not the fault of those who are doing the 
teaching or those who are receiving the information. So trying 
to address those issues in a blame-free way has been very 
helpful, but we took the lead from the NAS report.
    In terms of weaknesses, people are just--they're trying so 
hard to get through casework they just need more support.
    Chairwoman Johnson. Thank you. My time has expired. Mr. 
Lucas.
    Mr. Lucas. Thank you, Madam Chair. Ms. Behenna, we are 
grateful for your perspective here as a legal practitioner with 
a long and fruitful career in Oklahoma, including being on the 
team that prosecuted the Oklahoma City bombing case. But as a 
former prosecutor and currently a litigator, you've sat on both 
sides of the courtroom. Can you expand for us with some 
thoughts about what information would be useful for lawyers and 
judges to determine the validity of forensic evidence and how 
to judge the qualifications of the forensic expert witnesses 
because these are issues you dealt with?
    Ms. Behenna. So----
    Mr. Lucas. And that's a very open-ended question, and I 
understand that.
    Ms. Behenna. It is. With regard to educating lawyers and 
judges about forensic science and its validity I guess is a 
better way to phrase it, I think that has to come through 
education. As I told you before, as a young prosecutor, when an 
analyst came into my office or forensic scientist came into my 
office and they said this test means this or this comparison 
means this, I took that without question. And so I think it's 
important and I think there started to be discussion amongst 
lawyers, prosecution and defense lawyers, about sometimes we 
don't get it right, and sometimes science needs to be validated 
and it needs to be tested. So I think that's the most important 
piece as far as educating and talking to practitioners. We have 
to rely on forensic science, as I said before.
    With regard to--you know, I think it's important for 
judges--judges, as I said in my written testimony, have a 
gatekeeping function. Before any expert can testify in a 
criminal proceeding or a civil matter for that matter, a judge 
has to evaluate the credentials of the person testifying and 
evaluate the science. And there are 702, 703, the rules of 
evidence. But sometimes judges as well are not well-educated on 
the validation or lack of validation of certain scientific 
techniques, and so I think in that respect, even though judges 
will continue to have a gatekeeping function, they need better 
education.
    Mr. Lucas. Mr. Gamette, let me turn to you. Idaho like 
Oklahoma is made up of many very rural communities. And there 
are special challenges in collecting and analyzing forensic 
evidence in rural communities. I assume Idaho is much like 
Oklahoma. My county sheriffs and my deputy sheriffs, my local 
chiefs of police and their patrolmen literally are jacks of all 
trades. They do everything in these little communities. What 
recommendations do you have for ensuring that no matter where a 
crime occurs we can have confidence in the way forensic 
evidence is handled?
    Mr. Gamette. Thank you for the question. I do see 
challenges in our rural agencies that we tried to address first 
by direct training, so we send out our staff. We send them from 
the crime lab itself and we educate these officers. We work 
together in partnerships. We collect evidence alongside of 
them, which I think is mainly important there. We want to 
prevent any unequal access to justice, so meaning a small 
community should not have less access to forensic services than 
you would have in a major metropolitan community. So we need 
resources to be able to put into all of these local communities 
training, education for these officers, early training at post 
and those sort of things to be able to address these needs that 
they have.
    Mr. Lucas. Literally in Oklahoma my local law enforcement 
in many cases on the city, county level depend on the Oklahoma 
State Bureau of Investigation (OSBI). And by the time you have 
an event occur that requires that kind of data collection, it 
can be an hour or two sometimes before their specialist can get 
to the field to some different part of the State, and this 
information does deteriorate after all.
    In my final moments I'd like to turn to Ms. Ballou and 
discuss NIST being given the challenge of bringing scientists, 
law enforcement, and lawyers together to achieve consensus. 
Tell us how that process is working, putting all these various 
minds, in the remaining time, together.
    Ms. Ballou. So you can imagine when you set up a new 
organization that there will be bumps in the road as you 
progress. And it was a learning experience. We found with the 
OSAC, with the size of it--550 members, actually was a little 
larger than when it first started--is that bringing everybody's 
personalities, expertise together and those who actually 
indicated that they learned a considerable amount from being 
part of that organization, as to what they initially thought 
was an easy task to do. And after listening to the other 
experts, whether it was in statistics or academia, they 
realized there was a lot they needed to learn also.
    And so at this point NIST has learned that there are some 
changes that are needed in the OSAC process to make it more 
fluid and to obtain faster and increased results from it.
    Mr. Lucas. Expired, Madam Chair. I yield back.
    Chairwoman Johnson. Thank you. Ms. Bonamici.
    Ms. Bonamici. Thank you. This is a fascinating and 
important topic. I appreciate the expertise of all the 
witnesses.
    The right to a fair trial and the presumption of innocence 
are real cornerstones of our criminal justice system, and we 
know that jurors and judges and prosecutors and defense 
attorneys all rely on the scientific evidence by forensic 
analysts. It's labeled expert testimony, as Ms. Behenna noted. 
That gives it a highly persuasive impact. But we know that 
forensic evidence is not always reliable.
    My home State of Oregon there's a lawyer named Brandon 
Mayfield. He lives not too far for me. I know him because our 
kids went to school together. After the 2004 train bombing in 
Madrid, Spain, Brandon was arrested and incarcerated based on 
fingerprints. His fingerprints were on file because he served 
as a lieutenant in the U.S. Army. He was incarcerated for a 
couple of weeks. The FBI broke into his home, tapped his 
phones, went through his garbage.
    Later, a couple weeks after Brandon was incarcerated, the 
FBI admitted it made a mistake, despite the fact it was later 
revealed that the Spanish authorities had told the FBI 
apparently multiple times before his arrest that the 
fingerprints were a negative match.
    Now, the government eventually apologized and paid Brandon 
and his family a couple million dollars, but I'm not sure that 
Brandon and his family will ever fully recover from the trauma 
they went through. It affected the whole community but 
certainly him, so my point is that this is a really critical 
topic that comes up in many ways.
    I want to follow up on Ranking Member Lucas' question about 
training for judges and lawyers. And I want to ask about 
current training models and whether they could be scaled 
nationwide. The Federal Judicial College provides training for 
Federal judges. The National Judicial College provides training 
for State judges. They're already providing forensic science 
training. Is there anything more that either organization can 
and should be doing in this area? Ms. Garcia, Ms. Behenna, I 
think might answer that.
    Ms. Garcia. One thing we're trying to develop in Texas 
based on feedback from our judges is actually a resource that 
they can access from the bench because, as Ranking Member Lucas 
mentioned, some of them are in very rural parts of the State. 
They cannot physically make it to the judicial conferences and 
the trainings, so we're trying to bring the resources to them.
    Ms. Bonamici. Interesting. Thank you. Ms. Behenna, do you 
have any thoughts on that?
    Ms. Behenna. No, I really don't. And it's--I mean, I wasn't 
aware--I knew that there was some training that was going on at 
least on the Federal level, not aware of the State, but, I 
mean, I would rely upon obviously Ms. Garcia with her----
    Ms. Bonamici. Thank you. I also wanted to talk a little bit 
about one of the recommendations from the NAS study that--13 
recommendations for improvements. One of them is fund research 
on sources of human bias in forensic science. I wonder if you 
could talk a little bit about that.
    There was a suggestion during Brandon Mayfield's whole 
event that there was bias because after Brandon married his 
Egyptian wife, he converted to Islam, so there was some 
suggestion that his son was taking Spanish, so when they found 
the computer--there were just a lot of things that were alleged 
to be caused by bias. So anybody want to address the extent 
that human bias affects these cases? Mr. Gamette and then Ms. 
Behenna.
    Mr. Gamette. I can say that right now practitioners are 
actively working on this issue. There are several laboratories, 
including Houston and Phoenix, Arizona, where they're working 
on human bias with researchers, performing research in the 
laboratory, putting precautions into place to address this very 
issue.
    Ms. Bonamici. I think that's something that's fascinating. 
Maybe we can follow up in another hearing. Ms. Behenna, your 
thoughts on that or Dr.----
    Dr. Kafadar. Kafadar.
    Ms. Bonamici. Kafadar.
    Dr. Kafadar. Yes, thank you. The Center of Excellence to 
which I alluded and where I'm working, I participate as well. 
Some of the projects involve trying to assess the level of bias 
and how you can modify the presentation of the materials to 
minimize the bias. There is also, in the OSAC that we 
mentioned, the three resource committees, and the last page of 
my testimony shows the organizational chart. There are three 
resource committees, one of which is human factors, and they 
try to assess any of the standards that come through to ensure 
that there is a minimum bias in them.
    Ms. Bonamici. Terrific. Ms. Behenna, do you have a thought 
on that as well?
    Ms. Behenna. Just quickly to follow up and that is that I 
think that a forensic scientist's independence--I'm sorry--and 
understanding that he is independent or she is independent will 
be helpful as well in eliminating bias.
    Ms. Bonamici. Absolutely. I see my time is expired. I yield 
back. Thank you, Madam Chair.
    Chairwoman Johnson. Thank you. Mr. Posey.
    Mr. Posey. Thank you very much, Madam Chair.
    In preparation for this hearing I contacted the sheriff in 
the county where I live and asked him for his thoughts or 
anything that I might be able to add to the conversation based 
on his experiences. And this is a statement that he gave me 
that I'd like to enter into the record.
    Chairwoman Johnson. Without objection.
    Mr. Posey. Thank you. ``As a career law enforcement officer 
with over 39 years of public service, I applaud the A.G. 
Sessions' position to disband those who seek to weaken the 
criminal justice system with the creation of the National 
Commission on Forensic Science. Ending a so-called group of 
advisers made up of attorneys and scientists whose sole purpose 
was designed to discredit and reject reliable and admissible 
forensic evidence was the right thing to do then, and it still 
remains true. What should be discussed is how our Federal law 
enforcement partners can help with forensic funding to expedite 
the lab submissions and eliminate untimely evidence backlogs.''
    And so having submitted that, I'd just like to start with 
Mr. Gamette, ask what you think we can do in that regard to 
help eliminate those backlogs. I know I've heard some 
discussion say it takes so much time, it takes so much time, 
but, you know, what would be the best way to eliminate the 
backlogs?
    Mr. Gamette. I think there's several issues there. One is 
in funding, and Coverdell is one of the main options that you 
have for funding in the laboratories. That Coverdell funding 
goes directly for instrumentation, for personnel, and other 
things that will directly impact the backlogs significantly.
    The other thing is in training. What we need is a bridge 
training to get people from education directly impacting the 
crime lab turnaround time. So we need a better transition plan 
to get those students from college into the laboratory. 
Sometimes it can take 6 months to 2 years to train those 
people, and that's not helpful when we need to eliminate the 
backlogs today.
    Mr. Posey. OK. Now, do you see that we have an adequate 
crop of aspirants for those positions? With an awful lot of TV 
programs now dealing with these subjects, I would think there 
would be a whole lot more public interest.
    Mr. Gamette. We do have a number of applicants for every 
position that we advertise. Sometimes we have a problem getting 
them through the background and polygraph process to be honest, 
but we do have a number of people that can take those jobs. 
It's a problem of transitioning them from their college 
education programs into a very specific niche of science.
    Mr. Posey. Very good. Thank you. Doctor?
    Dr. Kafadar. You were asking what can be done to reduce the 
backlog?
    Mr. Posey. Yes, just your thoughts on that.
    Dr. Kafadar. So I used it to work at Hewlett-Packard 
Company and they would continue to, you know, do processes. And 
what I often found is that when we designed statistical 
experiments to identify the factors that were affecting the 
sources of variation and the yield, you know, the percentage of 
proper products that were being outputted from the process, 
they actually saved a lot of time.
    Mr. Posey. OK.
    Dr. Kafadar. So it was a matter of process control.
    Mr. Posey. Thank you.
    Dr. Kafadar. Yes.
    Mr. Posey. Ms. Behenna.
    Ms. Behenna. Yes, I won't profess to know how to clear a 
backlog. I will tell you that I hear from my friends at the 
OSBI who complain all the time about their backlog and forensic 
testing. It's a matter of resources.
    Ms. Garcia. Thank you. The Texas legislature has heard the 
same complaint that your sheriff made from various members of 
law enforcement around our State, and I'm very happy to report 
that this year they've really focused on it. They have funded 
the transition that Mr. Gamette spoke about. They're funding 
Sam Houston State University, the University of North Texas 
Health Science Center to take those students and really get 
them bench-ready faster and more efficiently. They are also 
dedicating a lot of money to Texas DPS (Department of Public 
Safety) to help them reduce the backlogs. So I think--and they 
are expecting results, so it will be interesting to see what 
happens during the interim in the next legislative session.
    Mr. Posey. So the State has taken a lot of responsibility 
there clearly.
    Ms. Garcia. Yes, sir.
    Mr. Posey. OK. Thank you.
    Ms. Ballou. NIST has the opportunity to look at the actual 
processes that are in place at the crime labs. Therefore, we 
hear from the scientists as to where they actually have the 
difficulty. Do they need a quicker version of a particular 
methodology to assist in expediting the analysis of whatever 
the evidence might be? And we had success with that when the 
DNA was coming on board specifically with 9/11. They needed a 
method that was quick on determining what possible DNA existed 
in the dust that was collected at the site, so NIST took it 
upon themselves to look at a different type of methodology or 
procedure. We continued to do that and look forward to working 
with scientists on areas where they need to look at the backlog 
areas or the logjams that are in the analysis process.
    Mr. Posey. Well, thank you all for your good answers, and 
my time is expired. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Lamb.
    Mr. Lamb. Thank you, Madam Chairwoman. And thank you to all 
the witnesses for being with us today.
    I also used to be a prosecutor before I was in Congress, 
and actually one of the biggest cases in my career I consulted 
an expert from NIST, which helped us kind of push the case over 
the line. We had really high-quality fingerprint evidence, the 
science for which has come under debate, as Ms. Bonamici talked 
about. But it kind of is what it is.
    The issue in our case had more to do with the creation of a 
digital image of those fingerprints, which is a newer area of 
science and the law and was like very much under attack, the 
reliability of those images, whether they're clear enough to 
really make a match and that kind of thing. And it was somebody 
from NIST that we talked to and consulted with for months and 
months and months and got input on that really allowed us to 
prove the reliability of what the FBI had done in that case.
    So it was a real success story and for me kind of shows 
how, when you have non-traditionally--or I guess scientists 
that are not traditionally connected to the criminal justice 
system weighing in on some of these topics, it can really 
strengthen the underlying practice of forensic science.
    So I guess my question is, if the NCFS (National Commission 
on Forensic Science) has been disbanded for lack of a better 
word but NIST remains engaged in these subjects and wants to 
make other contributions, is NIST kind of the home institution 
for integrating forensic science and traditional and emerging 
science now to make sure we still get those same kind of 
results going forward?
    Ms. Ballou. My honest answer would be I'd love to see that, 
but what actually happens is NIST is so involved with all the 
Federal agencies and the scientists within them, and we work 
collaboratively as to where are the difficulties to expand on 
the research. But NIST is also a part of the Council of Federal 
Forensic Laboratory Directors, so we sit at the table with the 
Directors of all the Federal agencies to listen to what the 
issues are, what are the concerns, where do they need 
additional measurement science applied.
    And in addition, the National Institute of Justice has held 
two meetings now, which the sole point of these meetings is for 
every agency to list the research projects that are taking 
place so that agencies can see where they can collaborate on a 
particular project, to stop duplication and to make maximum use 
of the Federal budget. So in that point I don't say NIST is 
taking lead. We're more part of the collaboration of agencies 
within the Federal agencies.
    Mr. Lamb. And do you feel like the institutional framework 
is such that you're getting close enough collaboration 
particularly with those engaged in criminal investigation and 
prosecution to be able to continue to play that role?
    Ms. Ballou. We are and I believe the OSAC is doing a 
wonderful process of updating even NIST with what the State and 
local needs are, which of course being in the Federal arena we 
don't always hear. So having them as participants right at our 
doorstep brings us back to where their concerns are and at that 
level.
    Mr. Lamb. Thank you. Dr. Kafadar, you kind of touched on 
this a little bit in your testimony as well. Can you just weigh 
in on the role of NIST as it stands today in the absence of 
NCFS and maybe where you see things going forward?
    Dr. Kafadar. Yes, I used to work at National Bureau of 
Standards, which of course became NIST, and I agree it's a very 
collaborative organization. That's the sense of the scientists 
that work there. So I think that the kinds of roles that Ms. 
Ballou was describing are consistent and should be encouraged.
    Regarding the interaction with the various disciplines, and 
I agree that OSAC has been very useful in pulling together a 
lot of people.
    Mr. Lamb. Great. And I just wanted to ask about one last 
topic, which was the reference, Ms. Ballou, to the work you all 
are doing on detecting trace amounts of opioids and 
particularly synthetic opioids. I have a bill that we're 
circulating now trying to gather support for called the POWER 
Act. It's--there's a companion part in the Senate as well that 
Senator Sherrod Brown is pushing. And essentially, we're trying 
to get opioid-detection equipment in the hands of more local 
first responders and crime labs that can detect fentanyl and 
the synthetic versions that are coming out because a lot of 
times the existing equipment might detect heroin but not 
fentanyl. So I just wanted to flag that for you. If there's 
anyone at NIST that wants to weigh in on either of our bills or 
suggest ways that we can make them even more comprehensive or 
help law enforcement more, particularly as you discover new 
synthetic analogs, I think this is going to be a problem for us 
for a while, please contact my office.
    Ms. Ballou. I appreciate that, and we will be in contact.
    Mr. Lamb. Thank you. I yield back, Madam Chairwoman.
    Chairwoman Johnson. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, Madam Chair. Boy, this is interesting 
stuff.
    Mr. Gamette, I'm going to start with you. Reading through 
your remarks and stuff, you mentioned that I think the AAFS was 
founded in 1948. And we've come a long ways because we didn't 
have a lot of the DNA and the technology that we have now back 
then.
    So it's very interesting to me. And I had to be away from 
the hearing for a bit, so I apologize if this is redundant. Is 
there a national crime info system on DNA that everyone can 
feed into, different States, different counties, different 
agencies, so that the Nation as a whole knows where that 
information is located?
    Mr. Gamette. Yes. There is a very extensive DNA database 
system in this country run by the FBI through the Department of 
Justice, and all local and State agencies that qualify, meet 
the FBI requirements, they have to go through very strict 
quality assurance categories and other things and be audited. 
But they can upload data that can be shared between the States 
both for arrestees and also for case data so that that data can 
be compared. We do it every day.
    Mr. Weber. So you call it case data. Of course there's all 
kinds of DNA evidence, right? You could call it a fluid, a 
hair, I don't know, skin, whatever else--how do you maintain 
the integrity of those, and do all those other agencies have to 
go and examine those personally?
    Mr. Gamette. The profile that you'd be looking at in CODIS 
or the national DNA index system would be a series of numbers, 
and so those numbers are compared to each other digitally. All 
that work is done in the database itself. And so the States 
generate a DNA profile from whatever type of evidence it is. 
Whether it's biological, from blood, hair, saliva, anything 
could be entered. But we developed a profile and then the 
profile is compared in the index.
    Mr. Weber. So, this might be a legal question. So in a 
case, does the law enforcement agency have to physically see 
that evidence or it's just the, Ms. Garcia, you're shaking your 
head no. So they can go there and they can get the numbers 
rather, and that's admissible in court and you don't have to 
actually have that evidence. Is that accurate?
    Mr. Gamette. So we have the evidence. The evidence would be 
collected at the scene. It comes into the laboratory. The 
evidence will be examined. Sometimes you might see the blood. 
Sometimes you might not. It might----
    Mr. Weber. So that evidence is still maintained in each 
particular jurisdiction----
    Mr. Gamette. It is generally.
    Mr. Weber [continuing]. Is what you're saying.
    Mr. Gamette. It comes into the State to be examined or to 
the local to be examined, and then it goes back to the agency 
once it's been examined and a DNA profile has been developed.
    Mr. Weber. OK. Thank you for that. Ms. Garcia, you said 
that you were hoping to develop a resource for judges they 
could use from the bench. What's the progress on that?
    Ms. Garcia. So, right now, we don't--we're just starting to 
outline it. We haven't--we just got funding to do this, so our 
fiscal year starts September 1. We're developing that, and 
hopefully, we'll be able to share it with other States when 
it's done.
    Mr. Weber. Congressman Posey read an interesting statement 
from his sheriff. What did you think about that sheriff's 
statement?
    Ms. Garcia. I understand that perspective. There are many 
members of law enforcement in our State who would share that. 
For someone who is out in a rural area with not much support, 
what's going on in Washington is very, very far away from the 
reality of what they have to contend with day in and day out. 
So we've made a special effort to work with law enforcement in 
more rural jurisdictions to make sure that whatever policy 
initiatives we envision from Austin, which also feels far away 
for some jurisdictions----
    Mr. Weber. I spent 4 years there.
    Ms. Garcia. Yes. That that--that those are doable, 
achievable for smaller agencies. And they will tell us when we 
are off course, and we will do our best to make course 
corrections.
    Mr. Weber. Is there--and this is a question--and I have 
about 40 seconds left. Is there one particular entity that sets 
the standard for--call it whatever you want, forensic--my son's 
in the FBI. I think he deals with forensic data from financial 
crimes and stuff, so I know forensic is kind of a broad term I 
guess. But in forensic data, there's DNA and all those kinds of 
things, who sets the standards so that forensic people are 
qualified? Who does that? Ms. Ballou? You're awful quiet.
    Ms. Ballou. It depends on what area of forensic science 
you're looking at. As you already mentioned, FBI sets the 
standards for DNA submission of profiles. So everyone looks to 
them for; what do I have to meet to get that in? But for what 
each individual has to meet to, say, be certified in the 
profession or for their agency to be accredited, I would say 
that everybody's kind of on their own on that one, on deciding 
what the agency expects to see in their employees and in their 
divisions and departments.
    Mr. Weber. But Ms. Garcia is putting that together so that 
she could have that to offer to judges.
    Ms. Garcia. I did want to make a comment. In Texas you 
must----
    Mr. Weber. You look like you did.
    Ms. Garcia. Yes. So in Texas we're the only State that 
requires a license to practice, so you must fulfill certain 
criteria that the legislature has set----
    Mr. Weber. And there's 87 different entities that Texas 
recognizes and 40-something are outside of Texas and 40-
something in Texas?
    Ms. Garcia. Yes, sir.
    Mr. Weber. OK. I'm way over my time. Thank you for your 
indulgence. Thank you, Madam Chair.
    Chairwoman Johnson. Thank you. Ms. Horn.
    Ms. Horn. Thank you, Madam Chair, and thank you to our 
panel of witnesses.
    And I would be remiss not to say it's good to have a 
constituent and resident of Oklahoma's 5th District.
    So, Ms. Behenna, I'd like to start my questioning with you. 
I think in your testimony, especially looking at the 
intersection of forensic science and criminal trials and how we 
do our best to ensure that the science is good and that we're 
finding that balance in the courtroom, it's been touched on in 
a couple of the other previous questions that we need to train 
judges, we need to train attorneys. And your transition from 
prosecutor to head of the Innocence Project is an interesting 
one. So my question is in what kind of training and way can you 
overcome the hurdle or the predisposition of accepting the 
information just as it's given to you or helping prosecutors 
and judges to understand their role in this process?
    Ms. Behenna. The greatest resource that I have right now 
is, quite honestly, the State Bureau of Investigation, the 
OSBI. We work very closely with the State Bureau of 
Investigation. If I have a question about a DNA report that 
came from a smaller county in Oklahoma, I can call the OSBI. I 
feel that they feel that they are independent scientists, and 
they're there to help anybody, whether it's a prosecutor, 
defense lawyer, or somebody at the Innocence Project.
    So there is not, again, a system in Oklahoma. I hope to 
resolve that sometime soon, not as soon as obviously as Texas 
has gotten on the ball with this. But hopefully that there is a 
resource like the OSBI that defense lawyers can contact and 
prosecutors can contact and questions things that they're told 
by their analysts and their experts.
    Ms. Horn. Thank you. And to follow up on that for a moment, 
you mentioned a system and the progress from the Innocence 
Project. Have you noticed an impact of organizations like the 
Innocence Project or other organizations like the work that's 
being done in Texas informing trials and prosecutors, 
especially in places like Oklahoma where we have a significant 
problem with incarceration in clearly and sadly some high-
profile cases of misuse of forensic evidence?
    Ms. Behenna. When I left the U.S. Attorney's Office and 
explained to people that I was going to go do defense work and 
be the Executive Director of the Oklahoma Innocence Project, I 
think my friends on the prosecution side, both Federal and 
State, thought I had lost my mind. But I constantly engage in 
conversations with them to help them understand all of us have 
one goal, and that is to see that justice is done. That's a 
statement that I learned as a very young prosecutor at the 
Department of Justice. My role was to do justice. If that meant 
somebody was acquitted, so be it. Justice was served.
    And so we're beginning this conversation in Oklahoma about 
justice is the most important idea. Because of this personal 
experience that I have, maybe I have a little more credibility 
when I tell people we need to make sure we do it right. They 
seem to listen. So it is my hope that in the future, at least 
in Oklahoma and around the country, people will understand that 
it's the importance of justice. That's what we're all working 
toward.
    Ms. Horn. Thank you. And, Ms. Garcia, I wanted to ask a 
little bit more about effective procedures and how that can 
translate. Clearly, Texas has put in a lot of work to other 
States that may not be as far along and what the most effective 
procedures have been to identify mistakes, fraud, and bias on 
the front end if States or other places aren't able to fully 
implement the same type of system that Texas has.
    Ms. Garcia. So Texas took the language in the Paul 
Coverdell law very literally, and they created an agency that 
investigates allegations of professional negligence and 
misconduct. That process and doing that transparently is how we 
started--and doing it fairly is the single best tool we have. 
Most States do not do that. They assign the task either to the 
A.G. or to an Inspector General or something like that. But we 
have a Commission with dedicated scientists who do that. And so 
the issues get vetted in a much more thorough way. That's where 
I would start in any State.
    Ms. Horn. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Before we go to 
the next questioner, let me express my appreciation to you, Ms. 
Behenna, for being here. I know you're going to have to leave 
soon to make your connections. You've been a very import 
witness, and we appreciate you being here.
    Dr. Babin.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. I appreciate 
it. And I want to tell all the expert witnesses thank you for 
your testimony today. It's fascinating.
    The use of forensic science has changed the way that we are 
able to study crimes and prosecute wrongdoers by providing more 
factual clarity in the evidence that we collect. The accuracy 
that has been brought to the courtroom since the introduction 
of forensic science is really pretty astounding.
    And I notice in your opening statements in 2016 where the 
Texas Forensic Science Commission issued a decision 
recommending a moratorium on the use of bite mark evidence in 
future criminal prosecutions in Texas, I remember that. I 
practiced dentistry for 36 years in a rural area in east Texas, 
and I remember close to 20 years ago our Sheriff's Office 
brought a container of skeletal remains by my dental office and 
asked me if I would help in trying to establish an 
identification. And I did my report, and I told the chief 
deputy, I said, ``well, I've done everything I can do. You 
know, I have to have some comparisons.'' And I thought it would 
be 6 months, and just a few days later he brought me several 
records, dental records from other dental offices, and we made 
a positive identification.
    And sadly, they were never able to solve that case, but the 
family did receive some closure about what happened to their 
young son. He was a U.S. Marine who had been home on leave. So, 
anyway, I thank you very much. It's certainly an important 
aspect of our criminal justice system.
    And you had mentioned, several of you, about how long it 
takes to be trained and certified to be a forensic scientist. I 
know how long it takes to become a dentist, although we do have 
specialties in forensics and dentistry, and it does take a 
little while longer. But did I hear one of you say it took 
about 2 years to get trained up to do this? You said that, Mr. 
Gamette?
    Mr. Gamette. Yes, sir. It can take somewhere between 6 
months to 2 years is generally a training period that we would 
quote.
    Mr. Babin. OK. And so the training--do you have just 
academia, universities and colleges, or is this kind of like a 
vocation or what type of 2-year training does that entail?
    Mr. Gamette. We hire scientists to work in our 
laboratories, so generally they will have a 4-year degree or 
more advanced degree----
    Mr. Babin. OK.
    Mr. Gamette [continuing]. Master's degree----
    Mr. Babin. Right.
    Mr. Gamette [continuing]. Ph.D. in the science that they're 
working in.
    Mr. Babin. OK. Thank you. And I have the privilege of 
representing a Houston district that stretches all the way to 
Louisiana by the way, and I want to just take a minute to 
commend the Houston Forensic Science Center (HFSC). HFSC was an 
early adopter of high standards approved by the Organization of 
Scientific Area Committees of Forensic Sciences, of which many 
of you know is administered by NIST and strengthen this 
Nation's use of forensic sciences.
    And, Ms. Garcia, you're a Texan. Do you have any 
recommendations or ideas on how NIST could build off of their 
ongoing relationship with States to better their systems and 
make improvements?
    Ms. Garcia. Yes, sir. Actually we've invited NIST to our 
last two meetings, and we are trying to follow in HFSC's 
footsteps--as you mentioned, they adopted the standards early--
by working with all of our labs so that we take the same 
position Statewide. And I think what NIST is going to need to 
do is go State to State and work with the responsible 
laboratories to make that happen everywhere.
    One thing I just wanted to note quickly is with respect to 
human identification using dental records, we have no issues 
with that.
    Mr. Babin. Oh, yes, I understand.
    Ms. Garcia. OK. Just to make it clear.
    Mr. Babin. But, you know, I graduated from dental school a 
while back, and I remember when bite marks were supposed to be 
positive proof, and that all went out the door at least in the 
State of Texas in 2016, so I understand.
    And, Ms. Ballou, would you care to comment on that as well, 
with NIST and ongoing relationships with States?
    Ms. Ballou. One of the activities NIST has taken under 
their wing was to request the NIST scientists to actually visit 
and take part in crime laboratories. And we've done so with the 
Maryland State Police and the Montgomery County Crime Lab. 
Those are both fairly close to the NIST Gaithersburg campus. 
And we've also visited several agencies in New Jersey and I 
believe Pennsylvania as well. And it has turned out to be a 
real eye-opener to our scientists.
    When I first arrived at NIST coming from a crime laboratory 
I was asked to help the research move faster to be applied into 
the actual workings of the crime laboratory. And when I was 
shown some of the results of the research I said, well, why are 
you using those items to test? And they said, well, these are 
the pure items we always test to determine whether the 
technology works. I said, well, let me put some spit on it, 
dirt on it, and some other things, and that would represent 
what we truly receive from the crime scene. And so it's been a 
real educational process, and NIST has really expanded the 
activities that it had taken forth on this.
    Mr. Babin. Thank you very much. It's fascinating. I could 
ask all of you questions for about an hour, but I'm running out 
of time, so I'll yield back. Thank you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Dr. McNerney.
    Mr. McNerney. Well, thank you, Chairlady. And I want to 
thank the witnesses. I mean, this is very informative 
testimony, and I hope we can sort of change that into Federal 
law in a positive way and Federal funding, too, so, again, I 
thank you.
    There is an intersection in the discussion with the idea of 
bias and explainability with artificial intelligence. Ms. 
Garcia, with the advances in computational forensic science 
such as probabilistic genotype for DNA analysis and algorithmic 
firearm analysis, with this replacing human analysis and 
interpretation of evidence, can we maintain a defendant's 
constitutional right to cross-examine and challenge evidence 
against them when the evidence was produced by computers?
    Ms. Garcia. Thank you for the question. I think there's a 
misunderstanding about probabilistic genotyping in particular 
that there is no human element there. There actually is. We've 
been looking at that very closely in Texas. We are an early 
adopter of probabilistic genotyping. I do think that analysts 
need to understand what the software is doing. They need to be 
able to answer questions on cross-examination about what the 
software is doing. It should not be used as a black box to plug 
information in and just get out a result. We've actually--we 
are just now working on a couple of cases where we saw problems 
in the way the analysis was done, and we're using those as 
learning tools to help the labs understand that it is not a 
black box. And there are still human judgment calls that are 
made. No analyst should testify if he or she does not 
understand what that software is doing.
    Mr. McNerney. Thank you.
    Ms. Garcia. I hope that answers your question.
    Mr. McNerney. So that should be a defendant's toolbox is, 
hey, this stuff comes from a black box, and we don't have any 
way to cross-examine?
    Ms. Garcia. I would say that at least in Texas the type of 
software that the labs are adopting there is plenty of room for 
defendants to ask questions about what's going on underneath 
that. It's not actually as much of a black box as I think 
people think it is.
    Mr. McNerney. Thank you. Ms. Kafadar, how should forensic 
standards evolve to address not only advances in the science 
but implementation of forensic methods and software?
    Dr. Kafadar. Implementation of forensic----
    Mr. McNerney. Of forensic methods----
    Dr. Kafadar [continuing]. Methods, yes.
    Mr. McNerney [continuing]. And software.
    Dr. Kafadar. So I actually was glad that you asked that 
question to Ms. Garcia about probabilistic genotyping, and I 
agree with her answer that there are software programs that 
could be used to give objective--less subjective output. I 
think the challenge is in making those algorithms transparent. 
Right now, I think a number of the algorithms used in Automated 
Fingerprint Identification Systems remain proprietary.
    And then also I think one of the real things that we want 
to do with those--that output is try to put some 
characterization as far as how likely is the output. Is it 
something that could apply to 20 percent of the population or 
only, you know, one in a million? So it would go a long ways 
toward making a more objective assessment of what was the 
output of the software.
    Mr. McNerney. Well, do you have concerns about the 
ascendancy of artificial intelligence in forensic science?
    Dr. Kafadar. In general, I think there's a lot of 
statistical foundations that needs to be--it needs to be 
applied to artificial intelligence algorithms. I think there 
have been a number of articles about that, and I would agree 
that there--there are a couple of aspects that arise with 
artificial intelligence algorithms versus the statistical 
foundations, and I think that stat foundations can enhance 
artificial intelligence algorithms because right now they're 
very dependent on the particular data on which they are 
developed.
    Mr. McNerney. Yes. Thank you. Ms. Ballou, in next-
generation sequencing algorithms known as probabilistic genome 
software used to interpret complex DNA mixtures, this 
technology is widely used in forensic labs across the country. 
However, it's not nearly as mature as people may think it is. 
What do you think the current state of maturity is of next-
generation sequencing?
    Ms. Ballou. And from NIST's point of view that is still 
under research. We are taking a look at it. It's a new area 
that we're investigating, and to find exactly where we are on 
that particular type of project we'll get back to with further 
information.
    Mr. McNerney. Well, it's--I mean, it sounds a lot of--in 
the past a lot of opinion has been passed on as science and has 
put a lot of innocent people in harm's way one way or another. 
So this is important, and I appreciate the hearing. Thank you.
    Chairwoman Johnson. Thank you very much. Dr. Baird.
    Mr. Baird. Thank you, Madam Chair. And thank you, 
witnesses, for being here today. I appreciate your sharing your 
information.
    Ms. Ballou, I'm going to start with you. My home State of 
Indiana has made a significant investment in technology-based 
programs, substance use programs, mental health treatment 
services for those that are incarcerated. So is NIST able to 
measure the impacts of State investments like this and 
incorporate those into your overall program? And I think you've 
answered some of those, but I'm going to give you another 
chance because I'd like to see how you feel about that.
    Ms. Ballou. That's an interesting question, and I do not 
believe I have additional information to provide for you at 
this time.
    Mr. Baird. So let's try another one then, OK?
    Ms. Ballou. OK.
    Mr. Baird. In my community in west central Indiana, and 
across the country, as we all know, fentanyl and other 
synthetic drugs are causing a shocking increase in the number 
of deaths. Could you elaborate on NIST's work on the standards 
and for detecting these illicit drugs?
    Ms. Ballou. NIST is working on improving the current 
technology that is used to screen for the presence of certain 
drugs. Right now, we're trying to make it so that there's the 
smallest amount of contact between the first responder and the 
suspicious material. We're still working to improve the 
process, and we hope to get that out to the community so that 
they can apply it as soon as possible.
    Mr. Baird. Very good. Mr. Gamette, what challenges do you 
face in your laboratories with analyzing illicit drugs, and 
what would you like to see us help you to get your work 
accomplished?
    Mr. Gamette. The challenges we see are instrumentation, 
which is very expensive in these disciplines, mainly toxicology 
and drug chemistry. It's also very expensive to train analysts 
in this discipline. It's expensive. NIST is providing some help 
on getting standard reference materials for us. That's been 
very helpful. So some of that research work to go into 
identifying panels for doing the validation study of these 
instruments when they come into the laboratory, that's also 
very helpful because it takes us a long time. What we haven't 
mentioned in this hearing is validation has to be done of every 
scientific discipline and every scientific instrument before we 
can use it in the laboratory. So all those things take 
resources to be able to do.
    And with the medical examiners, they're also dealing with 
this opioid crisis and need resources, and they also have 
severe workforce issues that we need to start dealing with.
    Mr. Baird. Thank you very much. I appreciate and I 
recognize the need for standards here and being able to use 
those as reference materials as you make comparisons, so I 
think that's extremely critical. And that was more of a comment 
than a question.
    So, Ms. Garcia, can you elaborate on how the Texas 
Commission is working on the NIST Standards Coordination 
Office? You've probably answered part of that. And do you have 
any recommendations for how NIST could better coordinate with 
other States or with the States?
    Ms. Garcia. Thank you for the question. So when I refer to 
the Standards Coordination Office, what I'm talking about is 
actually not the OSAC. It's a separate part of NIST that 
interacts--helps regulators, both Federal and State, to work 
with accrediting bodies. So all of our laboratories are 
accredited, but what we've seen over the last 10 years is that 
accreditation has great benefit but it also misses some things. 
And some of those are major things.
    So what we are trying to do is work with that body so that 
they can help us set up a list of--in addition to the ISO 
program, these are the things that we'd like to see in Texas 
laboratories. And then we'll work with the accrediting bodies 
so that they can assess the labs against that extra list. And 
it could include everything from human factors considerations, 
all sorts of things. So that's what I meant with that comment.
    Mr. Baird. Thank you. And one last, I've got about 36 
seconds I guess, so Ms. Ballou, can you elaborate on how you 
prioritize the work in your forensic science and----
    Ms. Ballou. We prioritize our work really by listening to 
the experts, the forensic scientists themselves to learn where 
are the issues that they're facing. We also pay attention to 
what are the latest court issues that are taking place, what 
concerns actually happened in the courtroom, is there somewhere 
that we can apply measurement science to address those issues?
    Mr. Baird. Three seconds. You did very well, thank you. I 
yield back.
    Chairwoman Johnson. Thank you very much. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chair, for yielding, and thank 
you to the panelists for appearing today.
    Before I became an elected official, I served--I'm a 
recovering lawyer. I served as a prosecutor. I was a criminal 
defense attorney, and I was even a judge for a while, so I have 
seen firsthand how incredibly persuasive forensic evidence is. 
In fact, a lot of times during voir dire certainly in serious 
felony cases I would inquire of the venire, ``How many of you 
would convict without some sort of forensic evidence, whether 
it be fingerprints or DNA or a certificate of analysis?'' And 
it was surprising to me, but on just about every panel there 
would be some people who would say I would not convict without 
that information. So it works both ways. So, you know, I have 
seen at all different cases how we have used forensic evidence.
    Now, in 2005--my home State is Virginia, and in 2005, we 
changed the DWI (driving while intoxicated) statute in 
Virginia. We're all accustomed to the .08, you know, liters 
percent per--you know, by weight, by volume, or per 2/10 liters 
of breath. But Virginia changed our statute to have presumptive 
levels of cocaine, methamphetamine, MDMA, and PCP in blood for 
presumptive impairment.
    Now, that was interesting to me, so when I saw--it was 
before I served in the State legislature. I went to look up the 
legislative history, and I saw that there really wasn't any. 
And when I spoke with Members who were, you know, present when 
this was passed, I asked them, you know, what kind of 
scientific evidence was presented about the impairment levels 
with these various, you know, milligrams of substance in the 
bloodstream, and there was--nobody had any recollection of 
anything.
    So that got me thinking about--now, I haven't seen any 
cases, by the way, being prosecuted under this particular 
section, but that got me thinking, as we have--you know, there 
are more and more States that have legalized marijuana, it is 
still presumptively illegal to operate a motor vehicle under 
the influence of marijuana in those States where it's legal.
    So I guess my question is kind of a two-part question. 
First of all, who makes the determination--you know, how is 
that determined what that presumptive level of a substance 
would be to bring up to the level of impairment? And second, 
are there any--is there anything going on in the area of 
marijuana intoxication that NIST is involved with or any of the 
other State labs are involved with?
    Ms. Ballou. Actually, NIH (National Institutes of Health) 
had done considerable studies. We're working with Dr. Marilyn 
Huestis, who was lead on that, and she was looking at, what are 
the effects of marijuana? How does it impair different people? 
We were hoping to take that information and then start working 
with other entities that have similar experience on determining 
a detection process.
    So NIST had worked with FIU, Florida International 
University, who had expertise in determining some of this 
relative information and trying to devise some type of 
detection instrument that would be similar to the breathalyzer 
that you could take in the field and have somebody breathe 
into. The difficulty is that the exhalation of the metabolites 
from the marijuana differ from person to person. So we're still 
at the stage of trying to figure this out and also working with 
legislators as to what should that level be for impairment.
    Ms. Wexton. And could the level of impairment for one 
individual be different from another individual?
    Ms. Ballou. Yes, it could.
    Ms. Wexton. OK. But it's like alcohol in that regard?
    Ms. Ballou. Yes.
    Ms. Wexton. Ok. How about other substances like the cocaine 
or MDMA or PCP?
    Ms. Ballou. At this time we're not working on those 
particular substances as that would have to be a blood draw, 
correct?
    Ms. Wexton. Yes.
    Ms. Ballou. And therefore, further work within the 
laboratory would take place on that. And at this time I don't 
recall if NIST is involved in those particular testing 
procedures.
    Ms. Wexton. OK. Ms. Garcia, do you have anything to add 
about those processes?
    Ms. Garcia. I would just say that I don't think we have 
limits or detection levels in Texas on those substances. I 
think any presence of that in the blood is going to be grounds 
for potential offense. In Texas marijuana is not legal but we--
the legislature just passed something similar to the Federal 
farm bill. So right now, we're working very closely with the 
D.A.'s on distinguishing hemp from marijuana.
    But in terms of marijuana in the blood and impairment, I 
know from talking with our toxicologists it's a particularly 
tricky issue in terms of how you set the line for impairment 
for operating a motor vehicle.
    Ms. Wexton. Very good.
    Ms. Garcia. So we need help from NIST.
    Ms. Wexton. Thank you very much. I see my time has expired.
    Chairwoman Johnson. Thank you. Mr. Tonko?
    Mr. Tonko. Thank you, Chairwoman, and thank you for holding 
this hearing on the state of forensic science in America. And 
thank you to our witnesses for joining us today and your 
expertise shared. Chairwoman Johnson, thank you for your 
leadership on this issue.
    I fully support efforts to establish scientific standards 
and protocols across forensic science disciplines. DNA evidence 
has quickly become one of the cornerstones of justice in 
America. As our knowledge and technique in using this evidence 
improves, we need to make certain that our progress relies on 
credible, rigorous science.
    New York's 20th congressional District, which I represent, 
has established itself as a home to national leaders in 
forensic science. The Forensic Investigation Center in Albany 
holds New York's DNA database, a vital resource to all who 
fight in the name of justice. That DNA data bank has helped 
with more than 3,000 convictions and has exonerated some 27 
innocent New Yorkers.
    Professor Igor Lednev at the University of Albany is 
working to develop new novel methods for forensic and medical 
diagnosis. With the help of more than a decade of continuous 
funding from the National Institute of Justice, he was able to 
develop the first universal method for characterizing 
biological stains at the scene of a crime, revealing the time a 
crime was committed and vital personal details such as age, 
race, and sex. This novel technology can help investigators 
analyze a possible crime scene much more quickly, avoid more 
false positives, and help reduce forensic backlogs that plague 
every criminal laboratory in America and ultimately speed up 
lengthy legal proceedings for violent crimes.
    Dr. Ray Wickenheiser, Director of the NYSP Crime Laboratory 
System, together with Dr. Lednev, have proposed creating a 
first-of-its-kind incubator for the development and validation 
of such novel technologies in forensic science. This will be 
the first incubator in the United States based on a State 
police crime laboratory that brings together researchers and 
inventors from academia--in this case the University at 
Albany--with engineers from private industry.
    These efforts show how and where forensic science currently 
excels, but they should also help us address the areas of 
forensic science where our standards have failed to prevent 
grave injustices that can result from its misuse. For example, 
it has been common practice for experts to overstate the 
reliability and certainty of forensic science methods presented 
as fact. Juries and judges are sometimes misled into thinking 
expert testimony is supported by credible science even when the 
methods used were scientifically unreliable. This practice 
serves no one and leads to wrongful convictions and injustice 
for all. The Federal Government has a duty to press forward 
with the best science to ensure that our justice system employs 
those methods and eliminates the use of junk science.
    So my question is to you, Ms. Ballou. Throughout your 
career and your work at NIST and your work with the American 
Association of Forensic Science, you have firsthand 
understanding of the role of both public and private sectors in 
ongoing forensic science reform work. Is there a role for these 
types of public-private partnerships in this field? And what 
commitments and investments could both sectors make to 
improving forensic science research and practice?
    Ms. Ballou. I'd say our first activity from NIST and the 
public-private was the establishment of the OSAC as we were 
able to pull in some of the private entities to provide their 
expertise for NIST understanding. We hope to expand upon that 
to have considerably more information shared between the 
different variety of groups.
    Mr. Tonko. And how can the Federal Government assist in 
these types of partnerships like that of the New York incubator 
for the development and validation of novel technologies in 
forensic science?
    Ms. Ballou. I think you've heard today a lot of examples of 
different ways of establishing commissions or other institutes 
that look at the establishments of new technology throughout 
these States, the local or the Federal areas to expand that. So 
activity is already taking place. We just need more of them.
    Mr. Tonko. Thank you. And, Mr. Gamette, have there been 
changes in university curricula and general approaches to 
education of forensic examiners over the last decade to ensure 
that they have stronger scientific and statistical 
understanding?
    Mr. Gamette. Yes, there have been. Several of those changes 
have been made through FEPAC, which is a forensic education 
organization that is run by the American Academy of Forensic 
Sciences. And I think more progress needs to be made in this 
area, but I think the scientists and the colleges are starting 
to recognize that to get jobs in a major crime laboratory 
they're going to have to educate the science--the scientists to 
those jobs that they're going to go into.
    I will also mention just briefly on what Ms. Ballou was 
talking about, there is a lot of work that's going on by 
several different groups, the Midwest Forensic Resource Center, 
the CSAFE (Center for Statistics and Applications in Forensic 
Science) that exists at NIST, in partnering the practitioners 
directly with the researchers, funding the research, but then 
making sure that they have the application of the practitioner 
there so that it does go into practice once the research is 
completed.
    Mr. Tonko. Thank you very much. And with that, Madam Chair, 
I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Madam Chair. I'm usually the last 
one because I always come in last. But I appreciate your 
testimony.
    Mr. Posey's letter from his sheriff made me think about the 
whole reason for today's hearing. And I appreciated that his 
sheriff wanted to see more criminal enforcement and all that 
sort of stuff, but we start with beyond a reasonable doubt. And 
where does that come from? So I actually looked it up.
    So you start with Abraham and Sodom and Gomorrah. The Lord 
didn't destroy Sodom and Gomorrah till Lot's family had escaped 
because he was going to favor the innocent over the guilty. 
Then Muhammad says if there are any doubts in the case, then 
use them, for it is better for the judge to err toward 
leniency. Maimonides said let a thousand guilty go free, lest 
one innocent suffer. William Blackstone at the beginning of 
English jurisprudence said 10. I don't know why he reduced it 
from 1,000 to 10, but Benjamin Franklin--and I would refer to 
Benjamin Franklin and quite frankly John Adams before I refer 
to the sheriff from whatever county that is in Florida. 
Benjamin Franklin took it to 100. He said it is better 100 
guilty persons should escape than one innocent person should 
suffer. And John Adams said, it is of more importance to the 
community that innocence should be protected than it is that 
the guilty should be punished.
    And so that's the reason for today's hearing. That's the 
reason we need to have our laboratories led by NIST really be 
as excellent as possible so that we don't convict innocent 
people. We lean toward allowing the guilty to go free.
    So Ms. Ballou, I was at the National Water Quality Lab on 
Friday in Colorado, so at the Federal center in Colorado where 
they were talking about trying to detect environmental issues 
down to one part per trillion. And so from a statistics 
standpoint, from a scientist standpoint, how do you guys 
determine if something is beyond a reasonable doubt? Or is that 
we're just going to leave it up to the jury?
    Ms. Ballou. So--it would help if I hit the button--I 
received that question when I was testifying once. Do you 
believe your testimony confirm beyond a reasonable doubt? And 
at that time I wasn't quite sure what that meant, beyond a 
reasonable doubt.
    And from the National Commission on Forensic Science, our 
attorney general at the time determined that none of the 
prosecutors should be using that phrase; beyond a reasonable 
scientific certainty because it is uncertain exactly what it 
means. And therefore, at NIST we look more toward, what is the 
scientific basis of a methodology or procedure? That would be 
our determination. In looking at the procedures that we put in 
place, are they scientifically solid? Is there a foundation 
established? And from that point on, then determine to what 
degree can we give a response to the jurors, to the officers of 
the courts as to our findings.
    Mr. Perlmutter. Anybody else? Good answer, by the way.
    Ms. Garcia. I would say that the importance of teaching our 
scientists what the limitations are of what they're saying is 
so critical in response to your question. If someone gets up 
and says so-and-so left that bite mark to a reasonable degree 
of scientific certainty and there is no data or science 
supporting that statement, that's how you get the trier of 
fact, the jury, to make the wrong conclusion on your question. 
So we have got to understand what our methods are, are they 
valid, and NIST has got to help us with that. And what are 
their limitations, and how can we articulate those in a way 
that does not lead to an injustice?
    Mr. Perlmutter. Thank you.
    Mr. Gamette. I was going to say quality assurance is really 
important in this discussion because we don't just press for 
productivity; we press for quality. And that's what we want to 
do in the laboratory every day. We don't want somebody going to 
jail that shouldn't be there.
    Now, important in that discussion, as it was just being 
discussed, uniform language in reporting, uniform language in 
testimony, what can the scientists say? And these standards are 
being established at OSAC. And it's the practitioners that are 
working with the researchers, with the statisticians. They all 
work together to be able to get this right and get it right in 
the courtroom.
    Mr. Perlmutter. Thank you. Anything?
    Dr. Kafadar. I'll just say that the average person still 
has trouble understanding uncertainty, and so statisticians are 
trying to figure out ways that we can communicate not just the 
confidence in our results but the limits of the uncertainty.
    Mr. Perlmutter. OK. Thank you. I yield back.
    Chairwoman Johnson. That concludes all of our questioners. 
And let me thank all the witnesses for being here and for your 
excellent testimony.
    The record will remain open for at least 2 weeks for 
additional statements from Members or any additional material 
you'd like to submit.
    At this time I will say thank you to the witnesses. And you 
are dismissed, and the meeting is adjourned.
    [Whereupon, at 12:37 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
